Record Press Inc., 228 West 36th Street, New York, N.Y. IDDIB•
Tel: (212) 618-4848• Fax No. (212) 608-3141
STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK

85573

AFFIDAVIT OF SERVICE

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years of age.
That on the 15th day of December 2020 deponent served 3 copies of the within ·
BRIEF FDR AN/COSCUH/AE
THE AMERICAN IMMIGRATION COUNCIL, AMERICAN IMMIGRATIDN LAWYERS ASSOCIATION,
THE ASYLUM DEFENSE PROJECT, THE BRDNXDEFENDERS, BROOKLYN DEFENDER SERVICES, CAPITAL
AREA IMMIGRANTS' RIGHTS COALITION, THE LE GA LAID SOCIETY, REFUGEE AND IMMIGRANT CENTER FDR
EDUCATION AND LEGAL SERVICES, AND RDCKYMDUNTAIN IMMIGRANT ADVOCACY NETWORK
AS AMICI CURIAE IN SUPPORT OF RESPONDENTS
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Jeffrey 8. Wall
United States Department of Justice
850 Pennsylvania Avenue, NW
Washington, District of Columbia 20530
(202) 514-2217

Paul W. Hughes
McDermott Will 6 Emery
500 North Capitol Street NW
Washington. DC
(202) 758-898/

Attorneys for Petitioner

Attorneys for Respondents

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America that the foregoing is true
and correct, executed on December 15. 2020, pursuant to Supreme Court Rule 28.5(c). All parties required to be served, have
been served.

Howard Daniels

Sworn to me this
December 15, 2020
Alessandra Kane
Notary Public, State of New York
No. DIKA6340521
Uualified in Richmond County

Case'Name: Tany H. Pham v. Maria Angelica Guzman Chavez
Docket/Case No. 18-887

-

'

